                         U.S. Department of Agriculture

                            Office of Inspector General
                                       Northeast Region




              Audit Report

  Grain Inspection, Packers and Stockyards
Administration’s Management and Oversight of
   the Packers and Stockyards Programs




                               Report No. 30601-01-Hy
                                        January 2006
                      UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250




January 10, 2006

REPLY TO
ATTN OF:      30601-01-Hy

TO:           James E. Link
              Administrator
              Grain Inspection, Packers and Stockyards Administration

ATTN:         S. Brett Offutt
              Director
              Policy and Litigation Division

FROM:         Robert W. Young /s/
              Assistant Inspector General
                for Audit

SUBJECT:      Grain Inspection, Packers and Stockyards Administration’s Management and
              Oversight of the Packers and Stockyards Programs


This report presents the results of our audit of the Grain Inspection, Packers and Stockyards
Administration’s management and oversight of the Packers and Stockyards programs Your
response to the official draft, dated January 5, 2006, is included as exhibit A. Excerpts of your
response and the OIG’s position are incorporated into the Findings and Recommendations section
of the report. Based on your response, we were able to reach management decision on the report’s
ten recommendations.        Please follow your agency’s internal procedures in forwarding
documentation for final action to the Office of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during this
audit.
Executive Summary
Grain Inspection, Packers and Stockyards Administration’s Management and Oversight
of the Packers and Stockyards Programs (Audit Report No. 30601-01-Hy)

Results in Brief                   The Grain Inspection, Packers and Stockyards Administration has not
                                   established an adequate control structure and environment that allows the
                                   agency to oversee and manage its investigative activities for the Packers and
                                   Stockyards Programs (P&SP). Our review identified three material weaknesses
                                   that have not been previously disclosed in the agency’s annual Federal
                                   Managers Financial Integrity Act (FMFIA) report. We found that P&SP had
                                   difficulties:

                                   •    Defining and tracking investigations,
                                   •    Planning and conducting competition and complex investigations, and
                                   •    Making agency policy.

                                   As a result, P&SP’s tracking system could not be relied upon, competition and
                                   complex investigations were not being performed, and timely action was not
                                   being taken on issues that impact day-to-day activities. These material
                                   weaknesses should be reported in the agency’s next FMFIA report because they
                                   represent essential activities for administering and enforcing the Packers and
                                   Stockyards Act of 1921 (Act). The Act prohibits unfair, unjustly discriminatory,
                                   and deceptive acts and practices, including certain anti-competitive practices.
                                   We also found that the agency has not taken sufficient actions to strengthen
                                   operations in response to findings previously reported by the Office of Inspector
                                   General (OIG) in February 1997 and the Government Accountability Office
                                   (GAO) in September 2000. Our current work was initiated in response to
                                   concerns raised by a U.S. Senator in April 2005.

                                   P&SP is responsible for maintaining fair trade practices in the marketing of
                                   livestock, providing financial protection for participants in livestock
                                   transactions, and ensuring open competitive marketing conditions for livestock
                                   and meat. To accomplish our work, we evaluated P&SP’s management and
                                   oversight of its competition and complex investigations. We also examined
                                   P&SP’s ability to track its investigations (i.e., financial protection, trade
                                   practice, and competition). We did not evaluate P&SP’s management and
                                   oversight of its financial protection and trade practice investigations.

                                   According to established standards for internal control, 1 P&SP managers and
                                   staff should establish and maintain an environment throughout the organization
                                   that sets a positive and supportive attitude. This type of environment is the
                                   foundation for effective internal control and provides the discipline, structure,

1
    GAO’s Standards for Internal Control in the Federal Government, dated November 1999, and the Office of Management and Budget’s Circular
    No. A-123, Management’s Responsibility for Internal Control, dated December 2004.
USDA/OIG-AUDIT No. 30601-01-Hy                                                                                                     Page i
                                        and climate that influence quality performance. We found that this type of
                                        environment did not exist between P&SP managers and staff.

                                        Inability to Track Investigations. P&SP’s tracking system counted all P&SP
                                        activities as “investigations” because there was no policy to define
                                        investigations. These activities included monitoring publicly available data,
                                        sending routine letters to request company-specific information, and performing
                                        onsite reviews of companies. In addition, records in the tracking system were
                                        not complete because there were no procedures for validating the accuracy and
                                        completeness of information recorded. Consequently, data fields were left
                                        blank. As a result, the system could not be relied upon as a control for managing
                                        P&SP investigations.2

                                        According to P&SP data, the agency was tracking a total of
                                        1,842 investigations as of June 30, 2005. The records, however, could not be
                                        used to identify the location of work performed (i.e., the P&SP office or the
                                        regulated entity’s place of business) for 1,799 of the 1,842 investigations. In
                                        addition, agency records were incomplete for 973 of the 1,842 investigations.

                                        Weak Management Control. As implemented, P&SP’s control3 for managing
                                        competition and complex 4 investigations inhibits the agency’s ability to
                                        investigate them. The Senior Management Review Panel (SMRP) does not
                                        clearly establish a process for identifying the work to be performed, approving
                                        work plans, performing the fieldwork and analysis, and reporting on the results.
                                        Consequently, no competition and complex investigations were being
                                        completed. As of August 29, 2005, all of these investigations, a total of 50, were
                                        engaged in the process of being approved by SMRP. Three of these
                                        investigations were opened in 2003, and one was opened over 3 years ago in
                                        July 2002.

                                        Since P&SP is not performing competition and complex investigations, no
                                        referrals were being made to the Office of the General Counsel (OGC) for
                                        formal administrative action. In February 2005, P&SP referred one
                                        competition investigation to OGC. The most recent referral prior to February
                                        2005 was November 2002, over 2 years earlier. OGC filed no administrative
                                        complaints against market participants for anti-competitive practices since
                                        1999 due to the lack of referrals by P&SP.

                                        No Decisions on Policy. Due to P&SP’s inadequate control structure, the
                                        agency was not making decisions on policies and requests for guidance from
                                        P&SP staff. A policy group was created in June 2005; however, P&SP has not

2
    P&SP’s inability to accurately and completely track its inventory of investigations limited the scope of our work. See Scope and Methodology for additional
    details.
3
    The control is the SMRP, which includes the Deputy Administrator and the Division Directors for Policy and Litigation, Industry Analysis, and Regional
    Operations.
4
    P&SP defines complex investigations as those that involve (1) more than one unit or region, (2) a substantial number or amount of resources, (3) a major firm,
    or (4) a novel legal theory.
USDA/OIG-AUDIT No. 30601-01-Hy                                                                                                                         Page ii
                    established the structure this group will use for receiving, reviewing, and acting
                    on policy questions raised by P&SP staff. As a result, timely action is not being
                    taken on issues that impact the day-to-day business activities of producers and
                    the entities P&SP regulates (e.g., packers, stockyards, and live poultry dealers).

                    We identified 64 policy issues that were awaiting decisions in P&SP
                    Headquarters as of September 30, 2005. These issues cover all types of P&SP
                    investigations (e.g., trade practice, financial protection, and competition) and a
                    variety of topics to be addressed by the Deputy Administrator and the Policy
                    and Litigation Division. For 55 of the 64 issues, guidance was requested prior
                    to 2004, with 2 submitted in 2000.

                    Prior Advice Not Implemented. In prior reports, OIG and GAO advised on
                    ways for P&SP to better allocate its resources to monitor the market for
                    anti-competitive behavior. In response, P&SP initiated actions to strengthen
                    program operations. We found that P&SP reorganized its operations in
                    1998 and charged the three Regional Offices with maintaining a high level of
                    expertise in one or more species of livestock. In addition, P&SP assessed its
                    staff’s qualifications and hired staff with legal, economic, and statistical
                    backgrounds.

                    We found that the actions taken in four areas, however, were not sufficient.
                    P&SP did not identify this because the agency did not have a process for
                    ensuring that agreed upon corrective actions were implemented. We found that
                    P&SP did not: (1) effectively integrate economists into the investigations,
                    (2) empower the agency’s legal specialist to consult with OGC, (3) hire a
                    manager with experience in leading P&SP investigations, and (4) develop a
                    teamwork approach for investigations with P&SP’s economists and OGC’s
                    attorneys.

                    Because of the weaknesses in P&SP’s control for managing competition and
                    complex investigations and P&SP’s lack of action to prior advice from OIG and
                    GAO, we did not further examine the agency’s allocation and use of resources
                    for P&SP investigations.

Recommendations
In Brief            P&SP needs to implement a policy for defining investigations, which requires
                    P&SP personnel to differentiate between activities to perform onsite reviews of
                    companies from those to monitor publicly available data and send routine letters
                    to request company-specific information. P&SP also needs to implement
                    procedures for recording data in the agency’s tracking system and for validating
                    the accuracy and completeness of the information recorded. The agency needs
                    to implement a well defined process for timely identifying the work to be
                    performed, preparing and approving work plans, performing the fieldwork and
                    analysis, and reporting on the results. In order to appropriately and timely
                    respond to policy issues and requests for guidance, the agency needs to develop
USDA/OIG-AUDIT No. 30601-01-Hy                                                                Page iii
                    and implement a structure for receiving, reviewing, and acting on them. Finally,
                    P&SP needs to develop and implement an internal review function to monitor
                    and report on agency activities.

Agency Response     GIPSA agreed with the report’s recommendations. We have incorporated the
                    agency’s response in the Findings and Recommendations section of this report,
                    along with the OIG position. The response is included as Exhibit A.

OIG Position        Based on the response, we were able to reach management decision on the
                    report’s 10 recommendations.




USDA/OIG-AUDIT No. 30601-01-Hy                                                              Page iv
Abbreviations Used in This Report


Act                                 Packers and Stockyards Act of 1921
FMFIA                               Federal Managers Financial Integrity Act
FY                                  Fiscal Year
GAO                                 Government Accountability Office
GIPSA                               Grain Inspection, Packers and Stockyards Administration
OCFO                                Office of the Chief Financial Officer
OGC                                 Office of the General Counsel
OIG                                 Office of Inspector General
P&SP                                Packers and Stockyards Programs
PLD                                 Policy and Litigation Division
SMRP                                Senior Management Review Panel
USDA                                U.S. Department of Agriculture




USDA/OIG-AUDIT No. 30601-01-Hy                                                                Page v
Table of Contents

Executive Summary ..........................................................................................................................................i

Background and Objectives............................................................................................................................1

Findings and Recommendations ....................................................................................................................5

    Section 1. Management and Oversight of P&SP Needs Improvement ...............................................5

         Finding 1                             Investigative Tracking System Inaccurate and Incomplete ..................6
                                      Recommendation 1 .................................................................................................8
                                      Recommendation 2 .................................................................................................8
         Finding 2                      Inadequate Process for Managing Investigations ..............................................9
                                      Recommendation 3 ...............................................................................................12
                                      Recommendation 4 ...............................................................................................13
                                      Recommendation 5 ...............................................................................................14
         Finding 3                      Policy Decisions Not Being Made ...................................................................14
                                      Recommendation 6 ...............................................................................................16
                                      Recommendation 7 ...............................................................................................17
         Finding 4                      Actions to Strengthen Program Operations Not Fully Implemented .............17
                                      Recommendation 8 ...............................................................................................19
                                      Recommendation 9 ...............................................................................................20
                                      Recommendation 10 .............................................................................................21

Scope and Methodology.................................................................................................................................22

Exhibit A – Agency Response .......................................................................................................................24




USDA/OIG-AUDIT No. 30601-01-Hy                                                                                                                    Page vi
Background and Objectives
Background         The U.S. Department of Agriculture’s (USDA) Grain Inspection, Packers and
                   Stockyards Administration (GIPSA) was established October 20, 1994, under
                   the authority of the Agriculture Reorganization Act of 1994. Through the
                   reorganization, GIPSA emerged as a new single agency overseeing USDA
                   programs that were previously managed by two independent agencies: the
                   Federal Grain Inspection Service and the Packers and Stockyards
                   Administration. This consolidation achieved part of the USDA’s overall efforts
                   to deliver these programs and services in the most efficient and cost-effective
                   way.

                   GIPSA works to ensure a productive and competitive global marketplace for
                   USDA products. The agency’s primary mission is to facilitate the marketing of
                   livestock, poultry, meat, cereals, oilseeds and related agricultural products, and
                   promote fair and competitive trading practices for the overall benefit of
                   consumers and American agriculture.

                   Congress passed the Packers and Stockyards Act of 1921 (Act) in response to
                   concerns raised by meat packers over unfair and deceptive trade practices, as
                   well as those that inhibit competition (hereafter referred to as anti-competitive
                   practices). The Act prohibits unfair, deceptive, and fraudulent practices by
                   market agencies, dealers, stockyards, packers, swine contractors, and live
                   poultry dealers in the livestock, meatpacking, and poultry industries. Although
                   antitrust laws enforced by the U.S. Department of Justice already prohibit
                   monopolistic and anti-competitive practices, Congress provided USDA with the
                   authority to regulate the livestock and meat packing industries. GIPSA’s
                   Packers and Stockyards Programs (P&SP) administers the Act. P&SP is
                   responsible for: (1) maintaining fair trade practices in the marketing of
                   livestock, (2) providing financial protection for participants in livestock
                   transactions, and (3) ensuring open competitive marketing conditions for
                   livestock and meat.

                   To determine if unfair or deceptive trade practices are occurring in the
                   procurement of livestock and poultry, P&SP conducts livestock procurement
                   investigations of slaughtering packers, dealers, and order buyers. These
                   investigations include examining a firm’s entire operations and reviewing such
                   things as payment practices, price manipulation, weight manipulation of
                   livestock or carcasses, manipulation of carcass grades, and commercial bribery.

                   P&SP provides financial protection for participants by regulating livestock
                   buyers’ business practices to ensure, among other things, that sellers are paid
                   promptly for their animals. Market agencies that sell livestock on a commission
                   basis are required to establish and maintain a custodial bank account that
                   contains the proceeds of livestock sales, for the benefit of livestock sellers.
USDA/OIG-AUDIT No. 30601-01-Hy                                                                 Page 1
                                    Payment protection is provided directly under the Act by statutory requirement
                                    of full and prompt payment, by packer bonding requirements, and by the packer
                                    trust provisions. Prompt payment is a significant element of the financial
                                    protection afforded producers under the Act and is an integral part of the packer
                                    trust which provides protection to producers who fail to receive payment from
                                    meat packers. In 1988, the Act was amended to include a statutory poultry trust
                                    provision giving payment protection to live poultry growers and sellers.

                                    One of the major responsibilities under the Act is to assure competitive
                                    marketing conditions. Various producer organizations have voiced concerns
                                    about enforcement in this area, which was the major topic of discussion and
                                    review by the USDA Advisory Committee on Agricultural Concentration
                                    established in 1996. P&SP is charged with investigating all complaints
                                    alleging anti-competitive behavior prohibited by the Act. Competition
                                    investigations are complex and often require sophisticated economic
                                    modeling and analyses. P&SP is responsible for evaluating complaints
                                    regarding restriction of competition, failure to compete, apportionment of
                                    territory, price manipulation, price discrimination, and predatory pricing. To
                                    maintain a competitive and fair marketing system, buyers of livestock must
                                    actively compete in the procurement of livestock, and the marketers of meat
                                    must also actively compete while selling their products.

                                    In February 1997, we reported on our assessment of GIPSA’s efforts to monitor
                                    and investigate anti-competitive practices. 5 This work was performed at the
                                    request of the Secretary of Agriculture. We concluded that GIPSA’s resources
                                    were not adequate for proper monitoring of the livestock procurement market
                                    for anti-competitive behavior. As a result of this review, several suggestions
                                    were made to GIPSA on ways to allocate its resources to better monitor the
                                    market for anti-competitive behavior. These included such things as:
                                    (1) reorganizing the agency’s National and Regional Offices, (2) integrating its
                                    economics staff into the investigations of anti-competitive practices, and
                                    (3) developing procedures to consult with USDA’s Office of the General
                                    Counsel (OGC) prior to initiating and during investigations of anti-competitive
                                    practices.

                                    In 1998, GIPSA initiated a major reorganization of P&SP primarily to enhance
                                    its capability to address concerns about anti-competitive activity. At the
                                    Headquarters level, located in Washington D.C., the reorganization included
                                    establishing the Office of Policy and Litigation Support with separate branch
                                    offices to oversee the agency’s competition, financial, and trade practice work.
                                    At the field level, the number of Regional Offices was reduced from 11 to
                                    3. The Eastern Regional Office in Atlanta, Georgia, leads competition,
                                    financial, and trade practice work involving poultry. The Western Regional
                                    Office in Denver, Colorado, leads work involving cattle and lambs, and the
5
    Agency Efforts to Monitor and Investigate Anti-competitive Practices in the Meatpacking Industry, Evaluation Report No. 30801-01-Ch, issued
    February 26, 1997.

    USDA/OIG-AUDIT No. 30601-01-Hy                                                                                                     Page 2
                                      Midwestern Regional Office in Des Moines, Iowa, leads work involving hogs.
                                      During the course of our current audit, GIPSA reorganized its Headquarters
                                      structure for overseeing the agency’s competition, financial, and trade practice
                                      work. According to a memorandum issued on June 22, 2005, by the Director of
                                      Regional Operations, the Office of Policy and Litigation Support was renamed
                                      the Policy and Litigation Division (PLD) with separate branches for policy and
                                      litigation. The Policy Branch was to focus on investigations and policy matters,
                                      and the Litigation Branch was to focus on reviewing cases and assisting OGC in
                                      litigation matters. Further, all economists located in Washington, D.C., were
                                      moved to the Industry Analysis Division, which was given oversight
                                      responsibility for competition cases.

                                      The Government Accountability Office (GAO) released a report on P&SP
                                      activities that followed up on the recommendations made by Office of Inspector
                                      General (OIG) and supported OIG’s conclusions. 6 GAO indicated that GIPSA
                                      completed a major restructuring of its Headquarters and field offices in 1999
                                      and hired staff to strengthen its investigation of alleged anti-competitive
                                      practices. However, GAO reported two principle factors continue to detract
                                      from GIPSA’s ability to investigate concerns about anti-competitive practices in
                                      these markets. First, GIPSA’s investigations are led and conducted primarily by
                                      economists without the formal involvement of attorneys from OGC. Second,
                                      GIPSA’s investigative processes and practices are designed for traditional trade
                                      practice and financial issues that the agency has emphasized for years, and thus
                                      are not suited for the more complex anti-competitive practices they are
                                      addressing now.

                                      On April 4, 2005, the Inspector General received a letter from a U.S. Senator
                                      expressing concerns with GIPSA’s management and oversight of the P&SP. Of
                                      particular concern was the possible inflation of the number of actual
                                      investigations conducted by the competition division in annual GIPSA reports
                                      to suggest a high rate of enforcement activity.

Objectives                            Our objective was to evaluate GIPSA’s management and oversight of the P&SP
                                      to ensure that anti-competitive and unfair practices in the livestock and poultry
                                      markets were accurately and effectively examined, reported, and resolved.
                                      Specifically, we evaluated the adequacy of GIPSA’s actions to: (1) investigate
                                      and act against anti-competitive activities in the livestock and poultry markets
                                      and implement needed regulatory reforms, (2) examine the counting and
                                      tracking of complaints and investigations for each of the P&SP enforcement
                                      areas, (3) determine how P&SP interpreted and carried out advice from prior
                                      OIG and GAO reviews, and (4) examine GIPSA’s allocation and use of
                                      resources to P&SP to investigate and act on possible violations of the Act.



6
    Actions Needed to Improve Investigations of Competitive Practices, RCED-00-242, issued September 21, 2000.

    USDA/OIG-AUDIT No. 30601-01-Hy                                                                               Page 3
                   To accomplish our objectives, we interviewed appropriate P&SP officials,
                   examined pertinent documentation, reviewed applicable policies and
                   procedures, and evaluated program operations in fiscal year (FY) 2005. We
                   performed work at P&SP Headquarters and OGC in Washington, D.C., and at
                   each P&SP Regional Office: (1) the Eastern Regional Office in Atlanta,
                   Georgia, (2) the Midwestern Regional Office in Des Moines, Iowa, and (3) the
                   Western Regional Office in Denver, Colorado. (See Scope and Methodology
                   for details.)




USDA/OIG-AUDIT No. 30601-01-Hy                                                           Page 4
Findings and Recommendations
Section 1. Management and Oversight of P&SP Needs Improvement

                                   P&SP has not established an adequate control structure and environment that
                                   allows it to conduct investigations to ensure open and competitive markets for
                                   livestock, meat, and poultry. Our review identified three material weaknesses in
                                   P&SP’s control structure and environment. These weaknesses have not been
                                   previously disclosed in the agency’s annual Federal Managers Financial
                                   Integrity Act (FMFIA) report. We found that P&SP had difficulties:

                                   •    Defining and tracking investigations,
                                   •    Planning and conducting competition and complex investigations, and
                                   •    Making agency policy.

                                   These material weaknesses should be reported in the agency’s next FMFIA
                                   report because they represent essential activities for administering and enforcing
                                   the Act, which prohibits unfair, unjustly discriminatory, and deceptive acts or
                                   practices, including certain anti-competitive practices. We also found that, due
                                   to weaknesses in P&SP’s control structure, the agency has not taken sufficient
                                   actions to strengthen operations in response to findings previously reported by
                                   OIG and GAO.

                                   We evaluated P&SP’s management and oversight of its competition and
                                   complex investigations. We also examined P&SP’s ability to track its
                                   investigations (i.e., financial protection, trade practice, and competition). We
                                   did not evaluate P&SP’s management and oversight of its financial protection
                                   and trade practice investigations.

                                   According to established standards for internal control, 7 P&SP managers and
                                   staff should establish and maintain an environment throughout the organization
                                   that sets a positive and supportive attitude. This type of environment is the
                                   foundation for an effective internal control structure. Such an environment
                                   provides discipline and structure as well as the climate that influences quality
                                   performance. We found that this type of environment did not exist between
                                   P&SP managers and staff, which significantly contributed to the agency not
                                   being able to ensure open and competitive markets for livestock, meat, and
                                   poultry.

                                   To address the weaknesses in P&SP’s control structure, the agency needs to
                                   implement the appropriate control activities and monitoring efforts, which
                                   would include an internal review function. Control activities help to ensure that

7
    GAO’s Standards for Internal Control in the Federal Government, dated November 1999, and the Office of Management and Budget’s Circular
    No. A-123, Management’s Responsibility for Internal Control, dated December 2004.

    USDA/OIG-AUDIT No. 30601-01-Hy                                                                                                 Page 5
                   management’s directives are carried out. Monitoring efforts assess the quality of
                   performance over time and ensure that the weaknesses in the control structure
                   are timely resolved.


Finding 1          Investigative Tracking System Inaccurate and Incomplete

                   The system used to track investigations (i.e., the complaints and investigations
                   log) counted all P&SP activities as “investigations.” These activities included
                   monitoring publicly available data, sending routine letters to request
                   company-specific information, and performing onsite reviews of companies.
                   This occurred because P&SP did not have a policy to define investigations. In
                   addition, records in the tracking system were not complete because there were
                   no procedures for validating that necessary information (e.g., the reason for
                   conducting the investigation) was recorded. Consequently, data fields were left
                   blank. As a result, the system could not be relied upon as a control for managing
                   P&SP investigations.

                   According to P&SP data, the agency was tracking a total of 1,842 investigations
                   as of June 30, 2005. The records, however, could not be used to identify the
                   location of work performed (i.e., the P&SP office or the regulated entity’s place
                   of business) for 1,799 of the 1,842 investigations. In addition, agency records
                   were incomplete for 973 of the 1,842 investigations.

                   In June 2005, the Deputy Administrator informed us that P&SP does not have a
                   standard definition for what constitutes an investigation. In addition, no
                   procedures have been implemented for validating the accuracy and
                   completeness of information recorded in the complaints and investigations log.

                   •   All Activities Counted as Investigations. Although P&SP does not have a
                       standard definition for an investigation, we found that P&SP’s working
                       definition has expanded to include activities that historically have not been
                       classified as investigations. According to experienced P&SP staff, the
                       agency only included onsite reviews of companies as investigations prior to
                       2000. According to P&SP Regional Managers, they received verbal
                       direction in 2004 from the Deputy Administrator to count as investigations
                       all matters where P&SP staff determines a violation and notifies the
                       regulated entities of this violation by certified letter. Our review of the
                       complaints and investigations log disclosed that P&SP staff now counts all
                       types of work performed (i.e., monitoring activities, sending routine
                       correspondence, or performing onsite reviews) as investigations, which
                       would inflate the number of investigations reported as completed in the
                       agency’s annual performance report. P&SP staff explained that certified
                       letters are used for routine correspondence with regulated entities and for
                       initiating onsite reviews. They further explained that they began recording


USDA/OIG-AUDIT No. 30601-01-Hy                                                                Page 6
                       monitoring activities because these activities were the only competition
                       investigations being approved.

                       In addition, we found that the three P&SP Regional Offices were not
                       consistently documenting investigative work in the complaints and
                       investigations log. Two of the three Regional Offices classified all
                       activities (i.e., monitoring activities, sending routine correspondence, or
                       performing onsite reviews) as investigations. The Eastern Regional Office
                       was reprimanded on June 14, 2005, by the Deputy Administrator for
                       classifying investigations to only include monitoring activities and onsite
                       reviews. The Deputy Administrator directed each Eastern Regional Office
                       Unit (e.g., competition, trade practice, and financial protection) to devise a
                       strategic plan to address the deficiency in the number of investigations
                       recorded in the complaints and investigations log. According to the
                       strategic plans, the units committed to increasing the number of complaints
                       and investigations in the log by adding activities that were previously not
                       included as investigations. These activities included delinquent annual and
                       special reports, bond terminations, bond increases, and registration and
                       bonding. We found this resulted in a significant increase in the number of
                       investigations recorded in the complaints and investigations log. On
                       June 14, 2005, the region was tracking a total of 425 investigations. By
                       comparison, as of September 15, 2005, a total of 760 activities were being
                       tracked by the region. The region climbed from last to first among the three
                       regions by reclassifying over 300 routine activities as investigations.

                   •   Complaints and Investigations Log Incomplete. We found that the
                       records in P&SP’s complaints and investigations log were not complete
                       because there were no procedures for validating the accuracy and
                       completeness of information recorded in the log. For example, fields in the
                       complaints and investigations log were blank because P&SP staff did not
                       make the necessary entries. Of the 1,842 investigations being tracked by
                       P&SP as of June 30, 2005, we found that agency records for 973 cases
                       were incomplete. The records were incomplete mainly because P&SP staff
                       did not record such information as the primary reasons for conducting the
                       investigation, the status of the investigative work, and the disposition of
                       closed cases.

                       In addition, we found that P&SP staff did not always assign an
                       investigation tracking number when they initiated work. According to data
                       in the complaints and investigations log and discussions with P&SP
                       regional staff, investigation tracking numbers are assigned before work
                       begins on financial protection and trade practice investigations. However,
                       tracking numbers are not assigned to competition cases until after the work
                       plan is approved by the Senior Management Review Panel (SMRP). We
                       identified that P&SP staffs are currently working on plans for nine
                       competition investigations for which no tracking number is assigned. None
USDA/OIG-AUDIT No. 30601-01-Hy                                                                 Page 7
                       of these work plans have been approved by SMRP. (See Finding 2 for
                       concerns we noted with P&SP’s SMRP procedures.)

                   The complaints and investigations log does not accurately and completely track
                   information on P&SP investigations. To ensure investigative activity is
                   consistently recorded, P&SP needs to define the activity to be recorded. The
                   definition should distinguish between P&SP activities for performing onsite
                   reviews of companies from monitoring publicly available data and sending
                   routine letters to request company-specific information. In addition, P&SP
                   needs to develop and implement procedures for validating the accuracy and
                   completeness of information recorded in the complaints and investigations log.

Recommendation 1
                   Develop and implement a policy for defining investigations. This policy should
                   require P&SP personnel to differentiate between activities to perform onsite
                   reviews of companies from those to monitor publicly available data and send
                   routine letters to request company-specific information.

                   Agency Response.

                   P&SP has developed and implemented a policy defining investigations. The
                   policy statement was effective January 5, 2006. P&SP considers an
                   investigation to be any activity to include follow-ups to prior violations,
                   industry driven complaints, and possible violations of the P&S Act found
                   pursuant to compliance or monitoring activities. The policy differentiates
                   between activities requiring on-site company visits versus activities
                   conducted solely in USDA offices. The policy also distinguishes
                   investigations from regulatory compliance activities (including sending
                   routine letters to request business-specific information), and from monitoring
                   activities that use publicly available data.

                   OIG Position.

                   We accept GIPSA’s management decision. For final action, GIPSA needs to
                   provide the Office of the Chief Financial Officer (OCFO) with a copy of the
                   policy statement defining investigations that was effective January 5, 2006.

Recommendation 2

                   Develop and implement procedures for recording data in the complaints and
                   investigations log. These procedures should specify the information to be
                   recorded and how the accuracy and completeness of this information will be
                   validated.



USDA/OIG-AUDIT No. 30601-01-Hy                                                             Page 8
                   Agency Response.

                   P&SP is developing and implementing procedures to better record data in the
                   Complaints and Investigation (C&I) log, including revisions to the C&I log
                   software. The procedures are based on the general definition described in the
                   response to OIG Recommendation 1 for an investigation and the distinction
                   of P&SP activities related to regulatory compliance reviews (for example,
                   financial reviews of annual reports for bond requirements and scale
                   checking), and monitoring activities (for example the hog market price
                   monitoring and fed cattle market price monitoring activities). Procedures
                   developed will be contained within a C&I log users manual and include the
                   information required for purposes of ensuring complete entries by C&I log
                   users. The new C&I log procedures and revisions to the C&I log software
                   will be completed June 2006. Review procedures will be developed for
                   confirming the completeness and accuracy of C&I log data entries at the field
                   level. Periodic audit validation checks will be conducted and reported by
                   headquarters staff from the Regional Operations Division. The review
                   procedures and an initial audit check of each region will be completed
                   June 2006. P&SP will consult with other governmental regulatory agencies to
                   determine what types of software they are using to assess if there are superior
                   software tools to support the tracking functions related to investigations,
                   policy guidance requests, and regulatory and rule making activities
                   mentioned below. The review of alternative software will be conducted by
                   June, 2006 and a decision whether to adopt alternative software will be made
                   September, 2006.

                   OIG Position.

                   We accept GIPSA’s management decision. For final action, GIPSA needs to
                   provide OCFO with a copy of the procedures for the new complaints and
                   investigations log and for confirming the completeness and accuracy of the data
                   recorded in the complaints and investigations log at the field level. GIPSA also
                   needs to provide OCFO with documentation of its decision on whether to adopt
                   alternative software for the complaints and investigations log.

Finding 2          Inadequate Process for Managing Investigations

                   P&SP uses SMRP to plan and conduct competition and complex investigations.
                   As implemented, SMRP inhibits the agency’s ability to investigate
                   anti-competitive activities and unfair trade practices in the livestock and poultry
                   markets. SMRP did not clearly establish a process for identifying the work to be
                   performed, approving work plans, performing the fieldwork and analysis, and
                   reporting on the results. Furthermore, the process places no responsibility on
                   P&SP Regional Managers for managing the investigations because all decisions
                   need to be approved by the Deputy Administrator. Consequently, no

USDA/OIG-AUDIT No. 30601-01-Hy                                                                  Page 9
                                      competition and complex investigations are being completed. As of
                                      August 29, 2005, all of these investigations, a total of 50, were engaged in the
                                      process of being approved by SMRP. Three of these investigations were opened
                                      in 2003 and one was opened over 3 years ago in July 2002.

                                      P&SP oversees competition and complex investigations through SMRP. This
                                      panel includes the Deputy Administrator and the Division Directors for Policy
                                      and Litigation, Industry Analysis, and Regional Operations. SMRP was initiated
                                      in response to a recommendation from GAO in September 2000. P&SP agreed
                                      to develop a review process for investigations in which complex investigations
                                      of anti-competitive activities are subject to review and approval by P&SP
                                      Headquarters and OGC. P&SP did not formalize its review process (i.e.,
                                      SMRP) in a written policy8 until May 2005.

                                      The May 2005 SMRP procedures included general rules regarding SMRP
                                      investigations and policies that identified the team, outlined the team’s
                                      responsibilities, and established requirements for such things as reporting,
                                      SMRP meetings, and consulting with OGC. The policy also included guidance
                                      on how to prepare and format investigative work plans. Since P&SP issued the
                                      policy in May 2005, it has amended the work plan format four times. Staffs in
                                      each P&SP region (Eastern, Midwest, and Western) were not certain of the
                                      expectations for investigations because the policy for preparing work plans was
                                      a moving target. Since the implementation of the policy in May 2005, a total of
                                      27 work plans have been submitted; however, no investigative work plans have
                                      been approved by SMRP.

                                      OGC receives referrals from P&SP requesting that a complaint be filed, reviews
                                      those cases for legal sufficiency, determines if an administrative complaint or a
                                      U.S. Department of Justice referral should take place, and provides legal
                                      services to file and litigate those actions, as appropriate. Since P&SP was not
                                      performing competition and complex investigations, no referrals are being made
                                      to OGC. In February 2005, P&SP referred one competition investigation to
                                      OGC. The most recent referral prior to February 2005 was November 2002,
                                      over 2 years earlier. OGC filed no administrative complaints against market
                                      participants for anti-competitive practices since 1999 due to the lack of referrals
                                      by P&SP.

                                      In each P&SP region, we found examples of investigative work plans that have
                                      not been approved. No work can be performed until the work plan is approved.
                                      We also found examples where decisions have not been made to act on the
                                      results of the investigations. We judgmentally selected investigative work plans
                                      and reports for review based on the complexity of the case, timeliness of
                                      approval, and delays due to changes to SMRP policy and procedures.

8
    Policy No. OPLS 06-05, SMRP Procedures, dated May 25, 2005. This policy was issued in draft form via electronic mail on March 15, 2005, for immediate
    implementation.

    USDA/OIG-AUDIT No. 30601-01-Hy                                                                                                             Page 10
                                      •      Plan for Annual Analysis of Procurement Data Not Approved. We
                                             found that P&SP has been unable to approve the work plan to collect and
                                             analyze fed cattle procurement data. Each year P&SP collects this data to
                                             determine the number of fed cattle purchased by the major packers 9 and if
                                             the major packers accurately reported this information in their annual
                                             reports to P&SP. The P&SP Western Regional Office submitted the work
                                             plans to collect and analyze the 2004 procurement data on
                                             December 27, 2004. The work plans included an individual work plan for
                                             each major packer and an overall work plan to analyze and summarize the
                                             information learned through the work at the four packers. None of these
                                             five work plans had been approved as of September 30, 2005. Historically,
                                             P&SP reports on this analysis by September 30 each year.

                                             The P&SP Western Regional Office made two major revisions to the work
                                             plans based on comments received from the Competition Branch of PLD in
                                             P&SP Headquarters. The first revision was submitted for review on
                                             February 17, 2005, and the second revision was submitted on
                                             March 11, 2005. A SMRP meeting was scheduled for March 23, 2005.
                                             However, on March 15, 2005, new guidelines were issued for formatting
                                             work plans. This formatting guidance required such things as an extensive
                                             investigative history of the company and any consultation with OGC. The
                                             scheduled SMRP meeting was cancelled until the work plans were revised
                                             to conform to the new formatting guidance.

                                             The P&SP Western Regional Office made three additional revisions to the
                                             work plans based on additional comments received from the Competition
                                             Branch from March to May 2005. Our analysis of the revisions disclosed
                                             that the requested revisions were not substantive. For example, the
                                             Competition Branch requested that the work be described as a “captive
                                             supply verification” rather than a “captive supply audit.”

                                             On May 17, 2005, a SMRP meeting was held, but the SMRP did not
                                             approve the work plans. The SMRP requested more extensive investigative
                                             history of each major packer and actual salary-based cost estimates. The
                                             P&SP Western Regional Office made the requested revisions and another
                                             SMRP meeting was scheduled for July 27, 2005. This meeting, however,
                                             was postponed indefinitely in order for Regional Office staff to respond to
                                             changes requested by the Deputy Administrator. For example, the Deputy
                                             Administrator required the work to be referred to as a “captive supply
                                             audit” as opposed to a “verification” and requested more statistical
                                             information. In order to include the requested statistical information, visits
                                             to two major beef packing facilities were needed. Before authorizing the
                                             trip, the Deputy Administrator required an abbreviated work plan
                                             describing the purpose of the work, the individuals to be contacted, and the

9
    The four major beef packers are Cargill Meat Solutions Corporation, National Beef Packing Company, Swift and Company, and Tyson Fresh Meats.

    USDA/OIG-AUDIT No. 30601-01-Hy                                                                                                                 Page 11
                       evidence to be collected. The abbreviated work plan was submitted on
                       August 16, 2005; however, as of September 30, 2005, the work plan had
                       not been approved.

                   •   Decisions to Close Investigations Not Made. During the week of
                       May 2, 2005, the P&SP Eastern Regional Office performed a preliminary
                       investigation to determine whether cattle dealers operating at a stockyard in
                       Alabama were using the same individual to buy livestock in order to
                       impede competition. This work was performed with the concurrence of the
                       Competition Branch of PLD in P&SP Headquarters. After performing the
                       fieldwork, the investigators recommended closing this investigation with
                       no further action because the available evidence did not indicate a lack of
                       competition at the market.

                       On May 10, 2005, the Deputy Administrator directed that all preliminary
                       investigations require approval of the SMRP to proceed. Accordingly, the
                       Eastern Regional Office sought approval to close the preliminary
                       investigation through SMRP. No action on the case was taken from
                       May 2005 until August 2005. On August 17, 2005, the Competition
                       Branch agreed with the region’s conclusions and recommended that the
                       Deputy Administrator approve the closure of this case. On
                       August 23, 2005, the Deputy Administrator provided edits to the decision
                       memorandum prepared to close the matter and requested a discussion of
                       the case with the Director of the Industry Analysis Division. As of
                       August 29, 2005, the preliminary investigation had not been closed because
                       the region needed the Deputy Administrator’s approval.

                   As implemented, the SMRP process inhibits P&SP from investigating
                   anti-competitive activities and unfair trade practices in the livestock and poultry
                   markets. The process did not clearly establish procedures for identifying the
                   work to be performed, approving work plans, performing the fieldwork and
                   analysis, and reporting on the results. Moreover, the process places no
                   responsibility on P&SP Regional Managers for managing the investigations,
                   since all decisions are approved by the Deputy Administrator.

Recommendation 3
                   Develop and implement a well defined process for timely identifying the work
                   to be performed, preparing and approving work plans, performing the fieldwork
                   and analysis, and reporting on the results. This should include controls for
                   conducting preliminary investigations to obtain sufficient facts to decide
                   whether to proceed with further investigation.

                   Agency Response.

                   P&SP is developing and implementing a clearly defined process for
                   identifying the work to be performed, preparing and approving work plans,
USDA/OIG-AUDIT No. 30601-01-Hy                                                                Page 12
                   performing the fieldwork and analysis, and timely reporting of the results.
                   The process includes controls for conducting initial fact finding activities to
                   determine if sufficient justification exists to merit proceeding with an
                   investigation. A preliminary work plan policy has been prepared including a
                   template for information needed in the work plans and how to describe the
                   work to be conducted in the investigation, and the review process. A work
                   plan task force with field and headquarters staff has reviewed the policy and
                   submitted comments on the policy. These comments will be included in the
                   final policy that describes the investigation process. The development and
                   implementation of the investigation policy will be completed March, 2006.
                   Regional Managers have been given the authority to approve routine or
                   non-complex investigations. Examples of such investigations would be of
                   insufficient funds or a failure to pay a livestock seller. The P&SP
                   investigation policy statement in this response will also indicate the increased
                   authority of the Regional Managers.

                   OIG Position.

                   We accept GIPSA’s management decision. For final action, GIPSA needs to
                   provide OCFO with a copy of the implemented investigation policy.

Recommendation 4
                   Develop and implement an effective system to communicate expectations
                   regarding P&SP’s investigative process and specific investigations.

                   Agency Response.

                   P&SP is developing and implementing an effective system to communicate
                   expectations regarding P&SP investigative processes and specific
                   investigations. A process to achieve better communications regarding
                   investigations will include several features. First, Regional Managers, who
                   have face-to-face communication with field investigators, are being vested
                   with greater authority. Second, the new definitions are being put into place to
                   clarify distinctions among investigative, regulatory, and monitoring activities
                   conducted by the field (described in GIPSA Responses 1 & 2). Third, new
                   investigative work plan guidelines are being finalized (described in GIPSA
                   Response 3). And last, a less rigid format for developing and implementing
                   investigation activity and less frequent changes to formal investigative
                   process will be used to enhance communications. A P&SP policy statement
                   documenting the complete implementation of the more effective
                   communication system will be issued no later than March 2006. Those items
                   related to the C&I log linked to GIPSA Response 2 above, will be completed
                   by June 2006.



USDA/OIG-AUDIT No. 30601-01-Hy                                                              Page 13
                   OIG Position.

                   We accept GIPSA’s management decision. For final action, GIPSA needs to
                   provide OCFO with a copy of the policy statement issued documenting the
                   complete implementation of the more effective communication system.

Recommendation 5
                   Develop and implement an organizational structure that appropriately divides
                   the responsibility for approving work plans, managing the investigations, and
                   reporting the results between Regional Managers and the Deputy Administrator.

                   Agency Response.

                   P&SP has developed and implemented a revised organizational structure that
                   appropriately divides the responsibility for approving work plans, managing the
                   investigations, and reporting the results between the Regional Managers and the
                   Deputy Administrator. Regional Managers have been given the authority to
                   initiate, develop, and provide management implementation of investigations,
                   except for competition investigations of large economic consequences. The
                   Division Directors acting in coordination with the Deputy Administrator will
                   now provide technical support. The Deputy Administrator will provide
                   oversight and final decisions on strategic resource allocations. A P&SP policy
                   statement was issued describing the changes in the organizational structure
                   January 5, 2006.

                   OIG Position.

                   We accept GIPSA’s management decision. For final action, GIPSA needs to
                   provide OCFO with a copy of the policy statement issued January 5, 2006,
                   describing the changes in the organizational structure.

Finding 3          Policy Decisions Not Being Made

                   P&SP was not making decisions on policies and requests for guidance from
                   P&SP staff. Decisions were not made because P&SP had no internal structure
                   for receiving, reviewing, and acting on policy questions raised. In addition,
                   P&SP had not established a mechanism to evaluate the need for regulatory
                   changes. As a result, timely action was not being taken on issues that impact the
                   day-to-day business activities of producers and the entities P&SP regulates
                   (e.g., packers, stockyards, and live poultry dealers).

                   We identified 64 policy issues that were awaiting decisions in P&SP
                   Headquarters as of September 30, 2005. These 64 issues cover all types of
                   P&SP investigations (e.g., trade practice, financial protection, and competition)
                   and a variety of topics to be addressed by the Deputy Administrator and PLD.

USDA/OIG-AUDIT No. 30601-01-Hy                                                               Page 14
                                         For 55 of the 64 issues, guidance was requested prior to 2004, with 2 submitted
                                         in 2000.

                                         On June 22, 2005, P&SP created the Policy Branch in a reorganization of PLD.
                                         The Policy Branch is responsible for investigations and policy matters.
                                         However, this branch has no internal structure for receiving, reviewing, and
                                         acting on policy questions raised by P&SP staff. In addition, this branch has no
                                         program for evaluating whether changes to the regulations are needed. Before
                                         the reorganization, the staff of the Policy Branch oversaw P&SP work regarding
                                         trade practice investigations.

                                         Of the 64 policy issues that have gone unanswered, 26 relate to trade practice
                                         issues, 14 are questions on financial protection matters, and 1 relates to
                                         competition. The remaining 23 issues cover a variety of topics, a total of 16 to
                                         be addressed by the Deputy Administrator and 7 to be addressed by PLD. The
                                         topics include such matters as how to make entries in the complaints and
                                         investigations log and how contacts with other agencies will be initiated.

                                         •      Trade Practice. P&SP is responsible for promoting fair business
                                                practices in the marketing and procurement of livestock, meat, and
                                                poultry, and determining if unfair or deceptive practices are occurring.
                                                P&SP’s conducts trade practice investigations to determine, among other
                                                things, whether companies are appropriately registered and bonded. Any
                                                person or entity engaged in the business of a livestock dealer must
                                                register with P&SP. Livestock dealers are also required to be bonded.
                                                Since December 2000, the P&SP Eastern Regional Office has sought
                                                guidance on the bonding requirements, if any, that can be placed on
                                                Canadian companies that act as livestock dealers in the United States. If
                                                bonding requirements were imposed they could secure the performance of
                                                financial obligations incurred in the purchase of livestock.

                                         •      Financial Protection. P&SP protects the financial integrity and stability
                                                of the livestock, poultry, and meatpacking industries by performing
                                                financial protection investigations. These investigations address such
                                                matters as the maintenance of custodial accounts. According to the
                                                regulations 10 every market agency engaged in the selling of livestock
                                                shall maintain a custodial account for tracking the proceeds generated
                                                from livestock sales. Sales proceeds are required to be deposited in the
                                                custodial account before the close of the next business day. In July 2001,
                                                the P&SP Western Regional Office sought guidance on how deposit
                                                requirements would apply when livestock is purchased with a credit
                                                card. According to Regional Office staff, the proceeds from credit card
                                                transactions are not always deposited in the custodial account before the


10
     Title 9 Code of Federal Regulations § 201.42, Custodial Accounts for Trust Funds, January 2005 edition.

     USDA/OIG-AUDIT No. 30601-01-Hy                                                                                Page 15
                       close of the next business day. P&SP staff sought guidance on whether
                       this type of deficiency should be treated as a violation.

                   In contrast, we found that P&SP policies have been recently issued for a variety
                   of administrative matters. On February 9, 2005, the Deputy Administrator
                   issued a policy to change the title of Regional Supervisors to Regional
                   Managers. On April 6, 2005, procedures were issued for scheduling P&SP
                   meetings with the Deputy Administrator. On the same day, in a separate
                   issuance, P&SP staffs were notified of the individual responsible for making
                   travel arrangements for the Deputy Administrator. To ensure that policy issues
                   and requests for guidance are timely addressed, P&SP needs to implement a
                   framework for reviewing and acting on them.

                   In addition to not having a structure in place for acting on policy issues, P&SP
                   did not have a program to evaluate whether changes to the regulations were
                   needed. Implementing such a program would be one way to effectively use the
                   agency’s regulatory analyst. Currently, this person is assigned the responsibility
                   of managing the agency hotline and posting information on stockyards. A
                   program to analyze regulatory needs is vital in order for P&SP to monitor the
                   markets that it regulates and recommend any needed changes. This program
                   should include a process for evaluating findings from P&SP’s reports of
                   investigation to determine the need for regulatory changes.

Recommendation 6
                   Develop and implement a structure for receiving, reviewing, and acting on
                   policy issues and requests for guidance.

                   Agency Response.

                   P&SP is developing and implementing a structure for receiving, reviewing, and
                   acting on policy issues and requests for guidance. Requests for policy guidance
                   and identification of potential regulatory needs will typically, but not
                   exclusively, originate in the Regional Offices with the staff affected by the
                   concern. Review and assessment of the request for action will be conducted
                   first by the Regional Manager who will forward the request to Headquarters if
                   action is deemed necessary. A position within the Policy Branch of the Policy
                   and Litigation Division (PLD) will be assigned the responsibility of receiving,
                   tracking the request, and making initial assignments to appropriate P&SP
                   Division Director(s) for drafting policy or regulations in conjunction with the
                   regulatory analyst in PLD. Actions taken to respond to OIG Recommendation
                   6 will be documented in a P&SP policy statement issued March, 2006.




USDA/OIG-AUDIT No. 30601-01-Hy                                                               Page 16
                   OIG Position.

                   We accept GIPSA’s management decision. For final action, GIPSA needs to
                   provide OCFO with a copy of the policy statement issued for receiving,
                   reviewing, and acting on policy issues and requests for guidance.

Recommendation 7
                   Develop and implement a process for reviewing investigative findings and
                   monitoring industry activity to determine if regulatory reforms are needed.

                   Agency Response.

                   P&SP will develop and implement a process for reviewing investigative
                   findings and monitoring industry activity to determine if regulatory reforms are
                   needed. The review process will include an assessment mechanism to determine
                   if industry conduct and behavior believed to be unfair and in violation of the
                   P&S Act can be halted through disciplinary enforcement action. Regional staff
                   through the Regional Managers will be vested with the authority to recommend
                   and initiate more specific regulatory reviews as described in the response to
                   OIG Recommendation 6. A P&SP policy statement will be issued March, 2006
                   to document steps taken to develop and complete the implementation of a
                   process to review investigative findings.

                   OIG Position.

                   We accept GIPSA’s management decision. For final action, GIPSA needs to
                   provide OCFO with a copy of the policy statement issued, which documents the
                   steps taken to develop and complete the implementation of a process to review
                   investigative findings.

Finding 4          Actions to Strengthen Program Operations Not Fully Implemented

                   In two prior reports, OIG and GAO advised on ways for P&SP to better allocate
                   its resources to monitor the market for anti-competitive behavior. In response,
                   P&SP initiated actions to strengthen program operations; however, the actions
                   taken in four areas were not sufficient. We found that P&SP did not:
                   (1) effectively integrate economists into the investigations, (2) empower the
                   agency’s legal specialist to consult with OGC, (3) hire a manager with
                   experience in leading P&SP investigations, and (4) develop a teamwork
                   approach for investigations with P&SP’s economists and OGC’s attorneys.
                   P&SP did not have a process for ensuring that agreed upon corrective actions
                   were implemented. In addition, P&SP did not identify the insufficiency of its
                   corrective actions because no internal review function was established to
                   monitor agency activities. As a result, P&SP has reduced assurance that mission
                   critical activities are being effectively performed.

USDA/OIG-AUDIT No. 30601-01-Hy                                                              Page 17
                   P&SP has not established an internal review function to monitor agency
                   activities. Monitoring efforts can be used to assess the quality of performance as
                   well as to test that agreed upon corrective actions are implemented.

                   In February 1997, we reported on our evaluation of P&SP’s efforts to monitor
                   and investigate anti-competitive practices in the meat packing industry
                   (Evaluation Report No. 30801-01-Ch). In response to our evaluation, P&SP
                   agreed to initiate actions in five areas to strengthen program operations.

                   •   Advice Implemented. P&SP initiated a reorganization of its operations,
                       which was completed in 1999. This reorganization focused agency
                       activities on specific livestock industries and established branches for
                       leading its investigations for competition, trade practice, and financial
                       protection. Finally, P&SP reduced the number of Regional Offices from
                       11 to 3 and charged each Regional Office with maintaining a high level of
                       expertise in one or more species of livestock. The Eastern Regional Office
                       developed expertise in the poultry industry, the Midwestern Regional
                       Office concentrated on the hog industry, and the Western Regional Office
                       focused on the industries for cattle and lambs.

                       In response to our evaluation, P&SP assessed its staff’s qualifications and
                       hired staff with legal, economic, and statistical backgrounds. We found that
                       P&SP struggles to achieve its full staffing levels. Since 1999, a total of
                       84 P&SP positions in Regional Offices became vacant because of
                       employee promotions, reassignments, resignations, retirements, and
                       transfers. The Western Regional Office had 43 of the 84 vacancies, while
                       the Midwestern and Eastern Regional Offices had 23 and 18 vacancies,
                       respectively. As of September 30, 2005, P&SP had 22 vacancies that
                       needed to be filled.

                   •   Advice Not Implemented. We found that P&SP did not effectively
                       integrate economists into the investigations. Economists have been hired,
                       but due to weaknesses in P&SP’s process for managing competition
                       investigations (see Finding 2), the economists have not been effectively
                       used. We found that P&SP is not referring competition investigations to
                       OGC as formal administrative complaints. OGC filed no administrative
                       complaints against market participants for anti-competitive practices since
                       1999 due to the lack of referrals by P&SP.

                       P&SP did develop procedures for consulting with OGC. However, we
                       found that the P&SP legal specialists are not allowed to consult with OGC
                       attorneys until the Deputy Administrator has been briefed on all issues
                       pertaining to the investigation. P&SP needs to implement procedures that
                       empower the legal specialists to consult with OGC. The procedures should

USDA/OIG-AUDIT No. 30601-01-Hy                                                                Page 18
                          establish parameters on the types of issues that must be discussed with the
                          Deputy Administrator before consultation with OGC.

                          GIPSA hired a former OGC attorney with experience in litigating cases
                          associated with P&SP activities as Deputy Administrator. The Deputy
                          Administrator, however, had limited experience in leading the types of
                          investigations P&SP performs (e.g., trade practice, financial protection, and
                          competition). As part of our current work, we also found that the Deputy
                          Administrator is attempting to change staff’s approach to performing P&SP
                          activities. For example, she is striving to have her managers, both in
                          Headquarters and the regions, perform their functions in more of a “big
                          picture” view and to evaluate the repercussions that their decisions have on
                          the agency and the livestock and poultry industries. By comparison, she
                          described that Regional Managers traditionally focused on the individual
                          investigations they performed and did not evaluate how the results may
                          impact the livestock and poultry industries. GIPSA needs to develop a
                          strategy to facilitate the implementation of this organizational change.

                   In September 2000, GAO reported on actions needed to improve P&SP
                   investigations of competitive practices (GAO/RCED-00-242). GAO recommended
                   that P&SP develop a teamwork approach for investigations with P&SP’s
                   economists and OGC’s attorneys working together to identify violations of the law.
                   GAO also recommended that P&SP adopt methods and guidance similar to the
                   U.S. Department of Justice and the Federal Trade Commission for selecting,
                   planning, conducting, and reviewing investigations and to consult with these
                   agencies on investigation management, operations, and case development
                   processes. As reported in Finding 2, P&SP’s process for managing investigations
                   inhibits the agency’s ability to investigate anti-competitive activities and unfair
                   trade practices in the livestock and poultry markets. In implementing the
                   recommendations to strengthen the process, P&SP should, as appropriate, adopt
                   methods and guidance similar to the U.S. Department of Justice and the Federal
                   Trade Commission.

                   As noted in our earlier findings, P&SP needs to implement the appropriate control
                   activities for administering and enforcing the Act, which prohibits unfair, unjustly
                   discriminatory, and deceptive acts or practices, including certain anti-competitive
                   practices. In addition, P&SP should establish an internal review function to
                   monitor agency activities. As part of the monitoring efforts, the internal review
                   function could assess the quality of agency performance with respect to achieving
                   particular goals and objectives, assure compliance with agency policies and
                   procedures, and test that agreed upon corrective actions are implemented.

Recommendation 8
                   Develop and implement procedures that empower the legal specialists to consult
                   with OGC. The procedures should establish parameters on the types of issues that
                   must be discussed with the Deputy Administrator before consultation with OGC.
USDA/OIG-AUDIT No. 30601-01-Hy                                                                  Page 19
                   Agency Response.

                   P&SP has developed and implemented procedures that enable the legal specialists
                   to consult with OGC. The procedures establish parameters on the types of issues
                   that must be discussed with the Deputy Administrator before consultations with
                   OGC. In general, legal specialists have full authority to contact OGC regarding
                   questions or concerns related to the development, implementation, or future
                   litigation of potential and ongoing investigations. The chain of command for legal
                   specialists has been changed from the Deputy Administrator to the Regional
                   Manager, which manages the office that is the legal specialists’ permanent duty
                   station. A process with OGC has been initiated so that competition investigations
                   will be assigned an OGC attorney at an earlier stage of the investigation to
                   facilitate broader and greater communication between P&SP legal specialists and
                   OGC attorneys. A P&SP policy statement describing the changes in organizational
                   structure and guidelines for the legal specialist to contact OGC was issued
                   January 5, 2006.

                   OIG Position.

                   We accept GIPSA’s management decision. For final action, GIPSA needs to
                   provide OCFO with a copy of policy statement issued January 5, 2006, which
                   describes the changes in organizational structure and guidelines for the legal
                   specialists to contact OGC.

Recommendation 9
                   Develop and implement a strategy and process for effective implementation of
                   changes in P&SP operations.

                   Agency Response.

                   P&SP is developing and implementing a strategy and process for effective
                   implementation of changes in P&SP operations. Several key administrative steps
                   to ensure effective change and a revitalization of ongoing P&SP operations have
                   been taken by the new GIPSA Administrator. Additional changes (including the
                   steps identified in GIPSA Response 10 below) will be completed no later than
                   September, 2006, and will be documented in P&SP policy statements. OIG
                   suggests that P&SP implement methods and guidance similar to DOJ and the FTC.
                   While there are many similarities between the activities that may be illegal under
                   the antitrust laws of the United States and under the Packers and Stockyards Act,
                   GIPSA, as a regulatory agency, has broader authority than that given to the law
                   enforcement authorities of DOJ. However, certain investigative tools, for example,
                   the use of civil investigative demands (CIDs) by DOJ are available to the antitrust
                   agencies and not to GIPSA. For this reason, not all techniques or approaches used
                   by DOJ and or the FTC are appropriate to the investigations of GIPSA. Currently
                   a memorandum of understanding (MOU) exists between USDA, the FTC, and
USDA/OIG-AUDIT No. 30601-01-Hy                                                                 Page 20
                    DOJ for the purpose of increasing each agency’s effectiveness. P&SP will work
                    with OGC, the designated USDA liaison to DOJ and FTC under the MOU to
                    develop a means for P&SP staff to learn from the antitrust agencies those
                    techniques and procedures most appropriate for use under the Packers and
                    Stockyards Act. Initial steps have been made with OGC to coordinate a planning
                    meeting with DOJ to determine a longer term ongoing relationship between DOJ
                    and P&SP economists and legal specialists. The outcome of the planning meeting
                    will be documented along with actions based on decisions from the meeting.
                    These documents will be issued September 2006.

                    OIG Position.

                    We accept GIPSA’s management decision. For final action, GIPSA needs to
                    provide OCFO with a copy of the document that describes the outcome of the
                    planning meeting with the U.S. Department of Justice and the actions based on
                    decisions from the meeting.

Recommendation 10
                    Develop and implement an internal review function to monitor and report on
                    agency activities. This should include the implementation of controls to monitor
                    and report on corrective actions agreed upon with entities external to P&SP, such
                    as OIG and GAO.

                    Agency Response.

                    P&SP is developing an internal review function to monitor and report on agency
                    activities. The implementation will include controls to monitor and report
                    corrective actions agreed upon with entities external to P&SP, such as OIG and
                    GAO. Responses to the OIG Recommendations above and in particular 2, 3, 4, and
                    6 will involve internal review components. Dates of completion of these response
                    items will documented as described above in the respective responses. Also, an
                    assessment of personnel assigned to internal review functions presently conducted
                    by P&SP will be undertaken. The assessment will determine if the potential exists
                    to improve P&SP reporting functions for the OIG and GAO recommendations.
                    The outcome and action taken will be documented and completed
                    September, 2006.

                    OIG Position.

                    We accept GIPSA’s management decision. For final action, GIPSA needs to
                    provide OCFO with documentation describing the internal review function
                    implemented to monitor and report on agency activities.




USDA/OIG-AUDIT No. 30601-01-Hy                                                                Page 21
Scope and Methodology
                   Our review focused on interviewing appropriate P&SP officials, examining
                   pertinent documentation, reviewing applicable policies and procedures, and
                   evaluating program operations in FY 2005. The fieldwork was performed from
                   May 2005 to October 2005. We performed work at P&SP Headquarters in
                   Washington, D.C., and at each of the three Regional Offices: (1) the Eastern
                   Regional Office in Atlanta, Georgia, (2) the Midwestern Regional Office in
                   Des Moines, Iowa, and (3) the Western Regional Office in Denver, Colorado.

                   We conducted our audit in accordance with Government Auditing Standards
                   established by the Comptroller General of the United States. The scope of our
                   work was limited because we were not able to accumulate sufficient evidence to
                   identify the location where investigative work was performed (i.e., the P&SP
                   office or the regulated entity’s place of business). In addition, the system used to
                   track P&SP investigations was not complete.

                   We evaluated P&SP’s processes and controls for conducting investigations to
                   ensure complaints were effectively examined, reported, and resolved. We did
                   not assess the quality of the investigations performed or the results reported.

                   P&SP Headquarters

                   We interviewed 11 individuals that worked in P&SP Headquarters, which
                   included 9 current and 2 former employees. These officials included the Deputy
                   Administrator for P&SP as well as the Directors and staff of the P&SP
                   Headquarters Divisions: (1) Policy and Litigation, (2) Industry Analysis, and
                   (3) Regional Operations. The purpose of our discussions was to obtain an
                   understanding of their oversight responsibilities and their roles in approving
                   investigations of anti-competitive and unfair practices in the livestock and
                   poultry markets. We also interviewed an individual from GIPSA’s budget staff
                   to understand how P&SP resources were allocated and used. To analyze and
                   corroborate the information learned, we reviewed the P&SP employee manual,
                   investigative policy and procedures, pending policy issues, pending
                   investigative work plan log, and other related P&SP documentation.

                   To gain an understanding of OGC’s relationship and involvement with the
                   P&SP investigative process, we interviewed the Assistant General Counsel for
                   Trade Practices.

                   P&SP Regional Office

                   We performed audit work at each of the three P&SP Regional Offices to
                   examine the agency’s handling of and accounting for complaints and
USDA/OIG-AUDIT No. 30601-01-Hy                                                                 Page 22
                   investigations and the agency’s investigative process. We evaluated complaints
                   and investigations from each P&SP unit (i.e., financial protection, trade
                   practice, and competition). We reviewed and evaluated the complaints and
                   investigation log, pending policies and procedures, weekly activity reports,
                   investigative work plans and reports, budget documents, and the turnover rate
                   for each P&SP Regional Office. We judgmentally selected investigative work
                   plans and reports for review based on the complexity of the case, timeliness of
                   approval, and delays due to changes to SMRP policy and procedures. In
                   addition, we interviewed 43 individuals that worked in P&SP Regional Offices,
                   which included 38 current and 5 former employees.

                   Finally, we followed-up on the actions taken to implement the advice given
                   GIPSA in prior reports by OIG and GAO. These reports included:
                   (1) Evaluation of Agency Efforts to Monitor and Investigate Anti-Competitive
                   Practices in the Meat Packing Industry, OIG Evaluation Report
                   No. 30801-01-Ch, issued February 26, 1997, and (2) Actions Needed to
                   Improve Investigations of Competitive Practices GAO Report
                   No. RCED-00-242, issued September 21, 2000.




USDA/OIG-AUDIT No. 30601-01-Hy                                                             Page 23
Exhibit A – Agency Response
                                 Exhibit A – Page 1 of 5




USDA/OIG-AUDIT No. 30601-01-Hy                         Page 24
                                 Exhibit A – Page 2 of 5




USDA/OIG-AUDIT No. 30601-01-Hy                         Page 25
                                 Exhibit A – Page 3 of 5




USDA/OIG-AUDIT No. 30601-01-Hy                         Page 26
                                 Exhibit A – Page 4 of 5




USDA/OIG-AUDIT No. 30601-01-Hy                         Page 27
                                 Exhibit A – Page 5 of 5




USDA/OIG-AUDIT No. 30601-01-Hy                         Page 28
